                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           Office of Inspector General
                                                           Washington, D.C. 20230




March 18, 20 14

MEMORANDUM FOR:               Lawrence E. Strickling
                              Assistant Secretary for Communications and Information
                              National Telecommunications and Information Administration


FROM:                         Ann   c. Eilers   J ecI
                                                   rr.-­                   e(')
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                      Audit of Broadband Technology Opportunities Program (BTOP)
                                 Public Computer Centers

We are conducting an audit of BTOP's public computer centers (PCCs). Our objectives will be to
review NTIA's procedures to ensure that (I) PCC recipients used appropriate procurement
practices, (2) recipient equipment purchases are installed, functioning effectively, and utilized to
achieve intended program outputs, (3) controls are in place to ensure effective accountability for
the purchased equipment, and (4) claimed results are verifiable. Also, we will assess if the project
will be sustainable beyond the grant period and continue to benefit the community.

Our fieldwork will be conducted at NTIA's headquarters in Washington, DC, and other locations
as needed.

We are working with NTIA's audit liaison to schedule an entrance conference. Should you have
any questions, please contact me at (202) 482- 4328 or Chris Rose, Senior Associate, Recovery
Act Task Force, at (202)482-5558.


cc:    Douglas Kinkoph, Acting Associate Administrator, Office of Telecommunications
        and Information Applications, NTIA
       Aimee Meacham, Director, Program Services, BTOP
       Kathy Smith, Chief Counsel, NTIA
       Milton Brown, Audit Liaison, NTIA
